U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 10, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Vincent Asaro v. United States of America,
S.CtNo. 19-107

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 22, 2019. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government's response is now due on September 18, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 18, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0 107
ASARO, VINCENT
USA

LISA S. BLATT
WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, N.W.
WASHINGTON, DC 20005
202-434-5000
LBLATT@WC.COM
RICHARD M. LANGONE
LANGONE & ASSOCIATES, PLLC
300 OLD COUNTRY ROAD
SUITE 341
MINEOLA,NY 11501
SHANA-TARA O'TOOLE
DUE PROCESS INSTITUTE
700 PENNSYLVANIA AVENUE, SE
SUITE 560
WASHINGTON, DC 20003
202-558-6680
SHANA@IDUEPROCESS.ORG
JAY R. SCHWEIKERT
CATO INSTITUTE
1000 MASSACHUSETTA AVE., NW
WASHINGTON, DC 20001
202-842-0200
JSCHWEIKERT@CATO.ORG

